OIG Investigative Reports, Pair Indicted in California Charter School Investigation
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
FOR IMMEDIATE RELEASE:
September 4, 2007
San Bernardino County District Attorney's Office
Michael A. Ramos
District Attorney
For Information Contact:
DDA Michael Fermin 909-382-7609
Pair Indicted in California Charter School Investigation
San Bernardino, CA — Today, a special criminal grand jury presented an indictment to the Presiding Judge of San Bernardino County. The indictment charges Charles Steven Cox, 59, of Phelan and Tad Theron Honeycutt, 44, of Hesperia with 117 felony counts ― 56 counts of Misappropriation of Public Funds, in violation of Penal Code Section 424, and 56 counts of Grand Theft, in violation of Penal Code Section 487 (a). The dollar amount loss is in excess of $5,000,000.00. Cox is accused in all 112 counts of Misappropriation of Public Funds and Grand Theft. Honeycutt is accused in 30 of those 112 counts.
Cox is also accused of failing to file a tax return, in violation of Revenue and Taxation Code Section 18706. Honeycutt is accused in three counts of failing to file a tax return in violation of the above-mentioned code, as well as being accused in one count of filing a false tax return, in violation of Revenue and Taxation Code Section 18705.
As a result of the indictment and arrest warrants issued, the defendants were arrested and arraigned in Superior Court in Victorville this morning before Judge Margaret Powers. Both defendants entered not guilty pleas. Bail is set at $1 million for Cox and $500,000 for Honeycutt. The next hearing is scheduled for September 7, 2007, in Superior Court in Victorville for Confirmation of Counsel and further proceedings.
Printable view
Share this page
Last Modified: 09/07/2007
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov